APPENDIX

la
Appendix A

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
HUA CAI,
Plaintiff - Appellant,
v.
HUNTSMAN CORPORATION,
Defendant - Appellee.
No. 19-4116
(D.C. No. 2:18-CV-00968-TS) (D. Utah)

ORDER AND JUDGMENT
Appealed Date: Auguest 13, 2019
Decided Date: April 20, 2020
irkie

Before HOLMES, PHILLIPS, and CARSON,
Circuit Judges.
GREGORY A. PHILLIPS, Circuit Judge.

‘ After examining the briefs and appellate record, this panel
has determined unanimously to honor the parties’ request for a
decision on the briefs without oral argument. See Fed. R. App. P.
34(f); 10th Cir. R. 34.1(G). The case is therefore submitted
without oral argument. This order and judgment is not binding
precedent, except under the doctrines of law of the case, res
judicata, and collateral estoppel. It may be cited, however, for
its persuasive value consistent with Fed. R. App. P. 32.1 and
10th Cir. R. 32.1.

2a

Hua Cai, appearing pro se, appeals v from the
district court’s entry of judgment on the pleadings in
favor of Defendant Huntsman Corporation on his
breach-of-contract claim. Exercising jurisdiction
under 28 U.S.C. § 1291, we affirm.
I. Background
Huntsman Corporation’s Chinese subsidiary,
Huntsman Chemical Trading (Shanghai) Ltd.,
employed Cai in Shanghai, China. But Huntsman
Corporation was not a party to Cai’s employment
contract and it never employed Cai.
Huntsman Shanghai and Cai agreed in their
contract that Cai’s continued employment with the
firm would be subject to satisfactory performance
during a six-month probationary period. Near the
end of Cai’s probation, his supervisor at Huntsman
Shanghai, Frank Xing, fired him ostensibly for being
incompetent. Cai claims that Xing manufactured this
pretense to cover-up his real reason for firing
Cai—namely, retaliation for Cai’s threat to report
Xing’s abusive conduct and falsification of data.
Cai sued Huntsman Shanghai in China, seeking
reinstatement. His action “ went through labor
arbitration court, trial court, appellate court,
superior court, and procuratorate.” R. at 7. Cai lost at
every step. He also lodged several complaints with
Huntsman Corporation’s ethics and corporate

3a
compliance
department.
The
department
investigated Cai’s case and allegedly found
abnormalities related to the “ ‘ faking data’ issue”
but confirmed that Xing correctly fired Cai. Id. at 6.
Cai then brought this suit against Huntsman
Corporation. He asserts certain Business Conduct
Guidelines published by Huntsman Corporation
constitute an enforceable contract between himself
and Huntsman Corporation. Cai further avers that
Huntsman Corporation breached this contract by
failing to conduct an adequate investigation into his
complaints and by failing to stop Huntsman
Shanghai from using unethical and dishonest tactics
to defeat his suit.
The district court granted judgment to
Huntsman Corporation on the pleadings under Fed.
R. Civ. P. 12(c), concluding that the Business
Conduct Guidelines “do not constitute a binding
contract.” R. at 214.1
II. Discussion
“A decision by the district court granting a
defense motion for judgment on the pleadings is
reviewed de novo, using the same standard of review
1 The district court also found that “[e]ven assuming the
Business Conduct Guidelines did constitute a contract between
[Cai] and [Huntsman Corporation], [Cai] has failed to show that
[Huntsman Corporation] breached those Guidelines.” R. at 214.
Because we affirm the district court’s conclusion that the
parties did not form a binding contract, we do not address Cai’s
arguments related to Huntsman Corporation’s alleged breach of
contract.

4a
applicable to a Rule 12(b)(6) motion.” Aspenwood Inv.
Co. v. Martinez, 355 F.3d 1256, 1259 (10th Cir. 2004).
“Thus, all the well-pleaded allegations of the
complaint are accepted as true and construed in the
light most favorable to the plaintiff.” Id. “[T]o survive
judgment on the pleadings, [a plaintiff] must allege ‘a
claim to relief that is plausible on its face.”’ Sanchez
v. U.S. Dep’t of Energy, 870 F.3d 1185, 1199 (10th Cir.
2017) (quoting Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009)). “To determine whether the claim to relief is
‘plausible on its face,’ we examine the elements of the
particular claim and review whether the plaintiff has
pleaded ‘factual content that allows the court to draw
the reasonable inference that the defendant is liable
for the misconduct alleged.’” Id. (quoting Iqbal, 556
U.S. at 678). In ruling on the motion, the court “may
consider documents referred to in the complaint if
the documents are central to the plaintiffs claim and
the parties do not dispute the documents’
authenticity.” Jacobsen v. Deseret Book Co., 287 F.3d
936, 941 (10th Cir. 2002).
We construe Cai’s pro se filings liberally but do
not serve as his advocate. See Garrett v. Selby
Connor Maddux & Janer, 425 F.3d 836, 840 (10th
Cir. 2005).
A. The Business Conduct Guidelines Do Not
Constitute A Binding Contract
The parties do not contest the district court’s
application of Utah law to the question of whether

5a
they formed a contract.2 Under Utah law, “formation
of a contract [generally] requires an offer, an
acceptance, and consideration.” Cea v. Hoffman, 276
P.3d 1178, 1185 (Utah Ct. App. 2012) (citing Golden
Key Realty, Inc. v. Mantas, 699 P.2d 730, 732 (Utah
1985)). “For an offer to be one that would create a
valid and binding contract, its terms must be definite
and unambiguous.” DCM Inv. Corp. v. Pinecrest Inu.
Co., 34 P.3d 785, 789 (Utah 2001). And “[t]he
obligations of the parties must be ‘set forth with
sufficient definiteness that [the contract] can be
performed.”’ Cea, 276 P.3d at 1185 (second alteration
in original) (quoting Ferris v. Jennings, 595 P.2d 857,
859 (Utah 1979)).
Applying this law, the district court reasoned
that “the terms of the Business Conduct Guidelines
are far from ‘definite and unambiguous.’ Rather, the
Guidelines speak in aspirational tones about the
2 Cai alleges Huntsman Corporation maintains its principal
place of business in Utah and his complaint cited Utah law in
support of his allegation that the ‘“Business Conduct
Guidelines’ is a kind of contract between headquarterfs] and I.”
R. at 6 (citing Uhrhahn Constr. & Design, Inc. v. Hopkins, 179
P.3d 808, 813 (Utah Ct. App. 2008)). The district court applied
Utah law to reject this allegation. While Cai’s opening brief
claims generally that the district court applied the wrong law in
deciding the case and cites Illinois, Massachusetts, and Utah
law in support of his argument regarding contract formation,
Cai does not explicitly argue that the district court erred by
applying Utah law. Cf. Kelley v. City of Albuquerque, 542 F.3d
802, 819 (10th Cir. 2008) (“[P]erfunctory” allegations of error
that “fail[j to frame and develop an issue” are insufficient “to
invoke appellate review.” (internal quotation marks omitted)).
And in his reply brief, Cai relies on Utah law to support his
claim that Huntsman Corporation contracted directly with him.

6a
values of the company and the type of workplace they
seek to establish.” R. at 214. It further observed that
“the Guidelines do not provide the basis for
determining the existence of a breach or for giving
the appropriate remedy.” Id. It therefore concluded
that the Business Conduct Guidelines “do not
constitute a binding contract.” Id.
Cai argues that “Utah Law only requires offer,
acceptance and consideration to be definite and
unambiguous.” Aplt. Reply Br. at 4. And he claims
that “[t]he terms of [the Business Conduct
Guidelines] are clear and definite enough to form a
contract.” Id. at 1 (boldface omitted). But while he
points to various statements in the Guidelines
outlining Huntsman Corporation’s policies on
reporting alleged violations, retaliation for such
reporting, and discipline for violating the Guidelines,
Cai does not grapple with the district court’s
reasoning that the Guidelines were too nebulous to
constitute a binding contract. Indeed, Cai does not
point to any language in the Guidelines that evinces
an offer, acceptance, or exchange of consideration.
Cai also notes that an employee handbook can
constitute a contract. But the unpublished Utah case
he cites holds that the type of contract created is an
employment contract and that the employee’s
continued employment constitutes acceptance of the
employer’s offer and supplies the consideration. See
First Am. Title Ins. v. Nw. Title Ins. Agency, No.
2:15-CV-00229-DN, 2016 WL 6902473, at *22 (D.
Utah Nov. 23, 2016) (“‘An employee manual may
create a unilateral contract.’ . . . ‘[T]he employee’s

7a
retention of employment constitutes acceptance of
the offer of a unilateral contract; by continuing to
stay on the job, although free to leave, the
employment supplies the necessary consideration for
the offer.’” (quoting Reynolds v. Gentry Fin. Corp. &
Royal Mgmt., 368 P.3d 96, 100 (Utah Ct. App. 2016)).
Cai concedes the Business Conduct Guidelines do not
form an employment contract and does not claim
Huntsman Corporation ever employed him. We
therefore conclude the employee handbook cases
have no relevance here.
We affirm the district court’s conclusion that the
Business Conduct Guidelines do not constitute a
binding contract between Cai and Huntsman
Corporation.
B. B. The District Court Did Not Err By
Considering Huntsman Corporation’s
Argument
Cai also asserts that the district court erred by
considering Huntsman Corporation’s argument that
the Business Conduct Guidelines do not constitute a
binding contract because Huntsman first asserted
this argument in its reply in support of its motion for
judgment on the pleadings. Cf. D. Utah Civ. R.
7-1(b)(2)(A) (“Reply memoranda . . . must be limited
to rebuttal of matters raised in the memorandum in
opposition.”).
Huntsman Corporation argued in its motion for
judgment on the pleadings that it “is not—and has
never been—a party to any contract with [Cai].” R. at
35. In response, Cai clarified his position that “the

8a
contract [Huntsman Corporation] breached is . . .
named ‘Business Conduct Guidelines^]’ . . . made
between [Cai] and . . . Huntsman Corporation.” Id. at
90. Huntsman Corporation then argued in reply that
“the Business Conduct Guidelines alone are nowhere
near sufficiently definite to form an offer that would
constitute a binding contract.” Id. at 155. Huntsman
Corporation’s reply directly rebutted the contention
from Cai’s opposition brief that the Business Conduct
Guidelines constituted a binding contract between
Huntsman Corporation and himself. The district
court did not err by considering this rebuttal
argument.
C. Cai’s Remaining Arguments Lack Merit
Cai contends that Huntsman Corporation
mischaracterized his complaint in its filings with the
district court by construing his claims as
breach-of-contract
claims
against
Huntsman
Shanghai. He then argues that the district court
accepted this alleged ruse and failed to consider his
“actual allegation . . . that [Huntsman Corporation]
breached [the Business Conduct Guidelines].” Aplt.
Opening Br. at 7. We reject this frivolous argument
since the district court squarely addressed Cai’s
assertion that Huntsman Corporation formed a
contract with him and then breached that contract.
Cai also avers the district court erred by stating
that his employment contract with Huntsman
Shanghai “incorporated Defendant Huntsman
Corporation’s Business Conduct Guidelines.” R. at
211. The district court’s view tracks closely with

9a
Cai’s own allegation in the complaint that “by
signing the employment contract [with Huntsman
Shanghai] plaintiff acknowledged [he would] fully
abide by the corporate
‘ Business Conduct
Guidelines.’” Id. at 5. In any event, the district
court’s disposition did not relate to its assessment of
whether Cai’s employment contract incorporated the
Business Conduct Guidelines. We therefore will not
review this allegation of error. See, e.g., Orr v. City of
Albuquerque, 417 F.3d 1144, 1154 (10th Cir. 2005)
(observing that the court “will not address [an] issue
[that] has no bearing on the ultimate outcome of [the]
case”).
III. Conclusion
We affirm the district court’s dismissal of Cai’s
breach-of-contract
claim
against
Huntsman
Corporation.
Entered for the Court
Gregory A. Phillips
Circuit Judge

10a
Appendix B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF UTAH
HUA CAI,

Plaintiff,
v.
HUNTSMAN CORPORATION,
Defendant.
Case No. 2:18-CV-968 TS-DBP
MEMORANDUM DECISION AND ORDER
GRANTING DEFENDANT’S MOTION FOR
JUDGMENT ON THE PLEADINGS
filed Date: December 21, 2018
Decided Date: June 17, 2019
***

TED STEWART, District Judge.

This matter is before the Court on Defendant’s
Motion for Judgment on the Pleadings. For the
reasons discussed below, the Court will grant the
Motion.

11a
I. BACKGROUND
Plaintiff signed an employment contract with
Huntsman Chemical Trading (Shanghai) Limited, a
subsidiary of Defendant Huntsman Corporation. As
part of that contract, Plaintiff agreed to “fully comply
with the policies, procedures, <Employee Handbooks
and other rules and regulation of Company.”1
Plaintiff alleges that this provision incorporated
Defendant Huntsman Corporation’s Business
Conduct Guidelines. Among other things, those
Guidelines state that Defendant Huntsman is
committed to providing a respectful workplace. The
Guidelines also provide a number of different ways
employees can report concerns and request
assistance.
Plaintiff alleges that he was subjected to
“evildoing” by his supervisor and was ultimately
terminated.2 Plaintiff alleges that he complained of
this to Defendant Huntsman’s Ethics and Corporate
Compliance Department (“ECCD”), but that it took
“no action to correct Huntsman Shanghai’s
evildoing.”3 Plaintiff contends that this inaction was
a breach of the Business Conduct Guidelines.
II. STANDARD OF REVIEW
Defendant seeks judgment on the pleadings
under Rule 12(c). The Court applies the same

1 Docket No. 12 Ex. 4, at § 3.4.
2 Docket No. 3 U 9.
3 Id. U 19.

12a
standards in evaluating motions under Rule 12(b)(6)
and Rule 12(c).4
In considering a motion to dismiss for failure to
state a claim upon which relief can be granted under
Rule 12(b)(6), all well-pleaded factual allegations, as
distinguished from conclusory allegations, are
accepted as true and viewed in the light most
favorable to Plaintiff as the nonmoving party.5
Plaintiff must provide “enough facts to state a claim
to relief that is plausible on its face,”6 which requires
unadorned,
an
than
“more
the-defendant-unlawfully-harmed-me accusation.”7
“A pleading that offers labels and conclusions’ or ‘a
formulaic recitation of the elements of a cause of
action will not do.’ Nor does a complaint suffice if it
tenders ‘naked assertion[s]’ devoid of‘further factual
enhancement.’”8
“The court’s function on a Rule 12(b)(6) motion
is not to weigh potential evidence that the parties
might present at trial, but to assess whether the
plaintiffs complaint alone is legally sufficient to
state a claim for which relief may be granted.”9 As
the Court in Iqbal stated,

4 See Jacobsen v. Deseret Book Co., 287 F.3d 936, 941 n.2
(10th Cir. 2002).
5 GFF Corp. v. Associated Wholesale Grocers, Inc., 130 F.3d
1381, 1384 (10th Cir. 1997).
6 BellAtl. Corp. v. Twombly, 550 U.S. 544, 570 (2007).
7 Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
8 Id. (quoting Twombly, 550 U.S. at 557) (alteration in
original).
Miller v. Glanz, 948 F.2d 1562, 1565 (10th Cir. 1991).

13a
[o]nly a complaint that states a plausible
claim for relief survives a motion to dismiss.
Determining whether a complaint states a
plausible claim for relief will ... be a
context-specific task that requires the
reviewing court to draw on its judicial
experience and common sense. But where the
well-pleaded facts do not permit the court to
infer more than the mere possibility of
misconduct, the complaint has alleged—but
it has not shown—that the pleader is entitled
to relief.10
In considering a motion to dismiss, a district
court not only considers the complaint, “but also the
attached exhibits,”11 the “documents incorporated
into the complaint by reference, and matters of which
a court may take judicial notice.”12 The Court “may
consider documents referred to in the complaint if
the documents are central to the plaintiffs claim and
the parties do not dispute the documents’
authenticity. ”13
III. DISCUSSION
Plaintiff brings a single cause of action for
breach of contract. “The elements of a prima facie
10 Iqbal, 556 U.S. at 679 (internal citations and quotation
marks omitted).
11 Commonwealth Prop. Advocates, LLC v. Mortg. Elec.
Registration Sys., Inc., 680 F.3d 1194, 1201 (10th Cir. 2011).
12 Tellabs, Inc. v. Makor Issues & Rights, Ltd., 551 U.S. 308,
322 (2007).
13 Jacobsen v. Deseret Book Co., 287 F.3d 936, 941 (10th Cir.
2002).

14a
case for breach of contract are (1) a contract, (2)
performance by the party seeking recovery, (3)
breach of the contract by the other party, and (4)
damages. ”14 Here, Plaintiff has failed to establish
the existence of a contract and, even if he had, has
not demonstrated a breach by Defendant.
Generally, formation of a contract requires an
offer, an acceptance, and consideration. An
offer is a manifestation of willingness to enter
into a bargain, so made as to justify another
person in understanding that his assent to
the bargain is invited and will conclude it.
For an offer to be one that would create a
valid and binding contract, its terms must be
definite and unambiguous. The obligations of
the parties must be set forth with sufficient
definiteness that [the contract] can be
performed. The terms of a contract are
reasonably certain if they provide a basis for
determining the existence of a breach and for
giving an appropriate remedy.15
Here, the terms of the Business Conduct
Guidelines are far from “definite and unambiguous.”
Rather, the Guidelines speak in aspirational tones
about the values of the company and the type of
workplace they seek to establish. The Guidelines do
not contain those types of things normally contained
14 Bair v. Axiom Design, L.L.C., 20 P.3d 388, 391 (Utah
2001).
15 Cea v. Hoffman, 276 P.3d 1178, 1185 (Utah Ct. App.
2012) (alteration in original) (internal quotation marks and
citations omitted).

15a
in an employment contract, such as duration of
employment, the work to be done, and the price to be
paid.16 Additionally, the Guidelines do not provide
the basis for determining the existence of a breach or
for giving the appropriate remedy. As such, they do
not constitute a binding contract.
Even
assuming
the
Business
Conduct
Guidelines did constitute a contract between
Plaintiff and Defendant, Plaintiff has failed to show
that Defendant breached those Guidelines. Plaintiff
complains that Defendant took no action to correct
those things he complained of. However, nothing in
the Guidelines requires Defendant to take any action.
The Guidelines provide that employees can report
concerns and request assistance and that
information “will be relayed to Huntsman for
investigation.”17 Nothing in this provision requires
Defendant to take a particular action in response a
report or request. At most, it would require
Defendant to investigate the claim. Plaintiff alleges
that the EECD did not investigate, but this is a
conclusory allegation devoid of any factual support.
Therefore, even if the Guidelines constituted a
binding contract, Plaintiff has failed to establish a
breach by Defendant.
16 See 1 Williston on Contracts § 4.21, at 644 (4th ed.)
(discussing the definiteness of offers and noting that “[a] lack of
definiteness in an agreement may concern the time of
performance, the price to be paid, work to be done, property to
be transferred, or miscellaneous stipulations to the
agreement”).
17 Docket No. 13 Ex. 3, at 8.

16a

IV. CONCLUSION
It is therefore
ORDERED that Defendant’s Motion for
Judgment on the Pleadings (Docket No. 12) is
GRANTED.
DATED this 17th day of June, 2019.
BY THE COURT:
/s/ Ted Stewart
Ted Stewart
United States District Judge

Case 2:18-cv-00968-TS Document 17 Filed 06/17/19 PagelD.237 Page 1 of 1

AO 450 (Rev.5/85) Judgment in a Civil Case

United States District Court
District of Utah

HUA CAI,
Plaintiff

JUDGMENT IN A CIVIL CASE

V.

HUNTSMAN CORPORATION,

Case Number: 2:18-CV-968 TS-DBP

Defendant

IT IS ORDERED AND ADJUDGED
that Plaintiffs action is dismissed with prejudice.

June 17, 2019

BY THE COURT:

Date

Tea Stewart
Uni States District Judge

17a
Appendix C
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
HUA CAI,
Plaintiff - Appellant,
v.
HUNTSMAN CORPORATION,
Defendant - Appellee.
No. 19-4116
(D.C. No. 2:18-CV-00968-TS) (D. Utah)

ORDER
Petitioned Date: May 3, 2010
Decided Date: June 4, 2020
Before HOLMES, PHILLIPS, and CARSON,
Circuit Judges.
Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was
transmitted to all of the judges of the court who are
in regular active service. As no member of the panel
and no judge in regular active service on the court
requested that the court be polled, that petition is
also denied.
Entered for the Court
/s/CHRISTOPHER M. WOLPERT
CHRISTOPHER M. WOLPERT, Clerk

